                                                                Issue Date
                                                                        August 10, 2007
                                                                Audit Report Number
                                                                             2007-DE-1006




TO:        Guadalupe M. Herrera, Director, Office of Community Planning and
             Development, 8AD

            //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 8AGA


SUBJECT: The State of Utah Did Not Comply with HOME Investment Partnerships
           Program Requirements


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the State of Utah’s (State) HOME Investment Partnerships Program
             (HOME). We selected the State’s HOME program for audit because it received
             more than $12 million in entitlement funds from 2004 to 2006 and the Office of
             Inspector General had not performed an audit of the State’s HOME program.

             Our objectives were to determine whether the Utah Department of Community
             and Culture, Division of Housing and Community Development (Division),
             properly used and recorded HOME program income in compliance with U. S.
             Department of Housing and Urban Development (HUD) requirements;
             established and completed HOME projects within the required periods; properly
             performed the required monitoring of the HOME projects; and, ensured that
             HOME funds were used for HOME activities.




                                             1
What We Found


         The Division incorrectly used more than $1 million in HOME funds when
         program income funds were available for use and did not make timely program
         income data entries in HUD’s Integrated Disbursement and Information System
         (System). Division management did not have policies and procedures in place to
         ensure compliance with HUD’s program income requirements. As a result, the
         Division’s entitlement and program income accounts were out of balance in the
         System and could not be corrected. The Division and HUD lacked assurance that
         the program income entered into the System was current.

         The Division generates so much program income that it does not effectively
         expend its entitlement funds. This is occurring because the Olene Walker
         Housing Loan Fund board’s goal is in direct conflict with its overall objective and
         with HUD’s time requirements. As a result, the Division is in jeopardy of losing
         at least $4 million in entitlement funds.

         The Division did not adequately monitor its contract recipients’ HOME activities
         or the HOME projects it established. The Division director did not provide
         sufficient oversight and management of the HOME functions. Therefore, the
         Division and HUD lacked assurance that all HOME projects were properly
         established and completed, that HOME funds were properly controlled, and that
         the intended program benefits were realized.

          The Division used HOME funds to pay expenses for the Utah Capacity Building
         Collaborative without substantiating that the expenses were for HOME-related
         activities. The Division director did not provide sufficient oversight and
         management of the HOME functions. Therefore, the Division and HUD lacked
         assurance that more than $300,000 in administrative costs were necessary.

What We Recommend


         We recommend that HUD require the Division to establish and implement effective
         written policies and procedures for its HOME functions, and the Olene Walker
         Housing Loan Fund board to bring its goals into agreement with its objective and
         with HUD HOME requirements. We also recommend that HUD determine whether
         the questionable costs were necessary and require the Division to repay any
         unnecessary costs. In addition, we recommend that HUD monitor the Division’s
         HOME activities and provide technical assistance.

         For each recommendation without a management decision, please respond and
         provide status reports in accordance with HUD Handbook 2000.06, REV-3.
         Please furnish us copies of any correspondence or directives issued because of the
         audit.



                                          2
Auditee’s Response


           We provided the draft report to Division officials on June 27, 2007 and received
           their written response on July 16, 2007. The Division officials indicated general
           concurrence with the findings and recommendations.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            3
                              TABLE OF CONTENTS

Background and Objectives                                                            5

Results of Audit
      Finding 1:   The Division Did Not Properly Use or Record Program Income        6
      Finding 2:   The Division Is Not Effectively Expending Its Entitlement Funds   8
      Finding 3:   The Division Did Not Properly Monitor All HOME Activities         12
      Finding 4:   The Division Did Not Ensure That HOME Funds Were Used for         16
                   Related HOME Activities

Scope and Methodology                                                                19

Internal Controls                                                                    20

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                 22
   B. Auditee Comments and OIG’s Evaluation                                          23
   C. Utah Capacity Building Collaborative Details                                   25




                                               4
                     BACKGROUND AND OBJECTIVES


The U. S. Department of Housing and Urban Development (HUD) designated the State of Utah
(State) as a participating jurisdiction to receive annual Office of Community Planning and
Development funding. HUD began allocating HOME Investment Partnerships Program
(HOME) funds to the State in 1992.

The Utah State Legislature created a housing trust fund in 1987. The State restructured the fund
a few times and established the current Olene Walker Housing Loan Fund (Fund) in 2001. The
mission of the Fund was to “support quality affordable housing options that meet the needs of
Utah’s individuals and families while maximizing all resources.” The objective of the Fund was
to develop housing that is affordable to very low-, low- and moderate-income persons. A 12-
member board, chaired by the governor of Utah, governs the Fund.

The State also restructured the office administering the Fund and established the current Division
of Housing and Community Development (Division) in 2004. The State further restructured and
made the Division part of the Utah Department of Community and Culture in 2005. The
Division’s mission was “to help local governments, organizations, and individuals to create and
maintain public infrastructure, facilities, services and housing and economic development to
enhance the quality of life for all Utahans.” A director manages the daily operations of the
Division, which maintains its records at 324 South State Street, Suite 500, Salt Lake City, Utah.

The State of Utah divided the state into seven geographic regions called associations of
government (associations) in 1970. The purpose was “to assist the state and local governments
with multi-county planning, program integration, and optimization of economies of scale.” The
Division contracted with five associations of governments to perform HOME functions.

HUD and the Division signed an annual contract titled Funding Approval and HOME Investment
Partnerships Agreement, which established the annual funding and its terms. HUD allocated to
the Division HOME funds of more than $4.5 million for 2004, $4.1 million for 2005, and $3.8
million for 2006.

Our objectives were to determine whether the Division properly used and recorded HOME
program income in compliance with the HUD requirements, established and completed HOME
projects within the required periods, properly performed the required monitoring of the HOME
projects, and used HOME funds for HOME activities.




                                                5
                               RESULTS OF AUDIT

Finding 1: The Division Did Not Properly Use or Record Program
            Income
The Division incorrectly used HOME entitlement funds when program income funds were
available for use. It also did not make the required timely entries of program income in HUD’s
Integrated Disbursement and Information System (System). Division management did not have
policies and procedures in place to ensure compliance with HUD’s requirements for the
recording and use of program income. As a result, the Division’s entitlement and program
income accounts were out of balance in the System and could not be corrected. The Division
and HUD also lacked assurance that the program income entered into the System was current.


 Program Income Not Correctly
 Used or Properly Recorded

              The Division did not properly use or record program income. The Division was
              required by 24 CFR [Code of Federal Regulations], Part 92 to disburse its program
              income funds before drawing down HUD HOME entitlement allocations.

              The Division did not record any program income in the System before 2004. At
              that time, in response to a HUD monitoring review finding, the Division
              determined the cumulative program income balance and entered it into the
              System. It also entered into the System program income earned in 2004 for a
              program income total of more than $5.4 million. However, during this time, the
              Division requested 11 draws from the HUD HOME entitlement allocation
              account. The 11 draws from the wrong HOME fund totaled more than $1 million.

              The Division corrected the improper procedure; however, it did not correct the
              improper entitlement draws. It made the last incorrect entitlement fund draw in
              January 2005. The cumulative total of entitlement and program income funds was
              correct in the System, but the balances of the two funds were not accurate. HUD
              officials stated that the HUD System did not allow for the changing of draws from
              one fund to the other, so neither HUD nor the Division could correct the fund
              balances in the System.

 Program Income Not Entered
 into the System in a Timely
 Manner
              HUD’s CPD [Community Planning and Development] Notice 97-09 requires that
              available program income be determined and recorded in the System in periodic
              intervals not to exceed 30 days. The Division staff maintained a spreadsheet in



                                               6
             which they recorded the newly earned program income. However, they did not
             enter this information into the System in the required periodic intervals. For
             example, the System entry dates showed that staff entered the program income
             earned from July through November 2006 into the System in February 2007.
             They did not always keep the spreadsheet current. We received the spreadsheet in
             February 2007 and it did not show the December 2006 and January 2007 program
             income. Therefore, the Division and HUD often did not have an accurate balance
             of program income.


Lack of Controls

             The Division did not have policies and procedures in place to ensure compliance
             with HUD’s requirements for the recording and use of program income. It did not
             have written procedures for the administration of program income. The Division
             employee responsible for requesting draws established informal procedures in
             2005 to control the use of program income. However, the informal procedures
             did not ensure the timely recording of newly earned program income. Without
             effective, well-established procedures, the Division and HUD lack assurance that
             the Division will properly record and use program income in the future.

Conclusion



             The Division incorrectly used more than $1 million in HOME funds when
             program income funds were available for use and did not make timely program
             income data entries in HUD’s System. Division management did not have
             policies and procedures in place to ensure compliance with HUD’s program
             income requirements. As a result, the Division’s entitlement and program income
             accounts were out of balance in the System and could not be corrected. The
             Division and HUD also lacked assurance that the program income entered into the
             System was current.

Recommendations

             We recommend that the HUD Denver Office of Community Planning and
             Development director

             1A. Require the Division to establish and implement written policies and
                 procedures for the program income functions sufficient to ensure the proper
                 recording and use of program income.

             1B. Monitor the Division’s recording and use of program income to ensure that it
                 does not draw down the entitlement funds when program income is available.



                                              7
Finding 2: The Division Is Not Effectively Expending Its Entitlement
            Funds
The Division generates so much program income that it is not effectively expending its
entitlement funds. This is occurring because the Olene Walker Housing Loan Fund board’s
(board) stated goal is in direct conflict with HUD requirements and contradicts the board’s
overall objective of developing housing that is affordable to very low-, low- and moderate-
income persons. As a result, the Division is in jeopardy of losing at least $4 million in
entitlement funds by the end of program year 2008 and the Division is not effectively meeting
the needs of very low-income persons who cannot afford loans.


 Division Not Effectively
 Expending Its HOME Funds.

              The Division generates so much program income that it has not been able to
              expend its entitlement funds except for the required community housing
              development organizations and administrative costs. HUD is required by 24
              CFR, Part 92 to recapture any funds not expended within five years of receiving
              the grant.

              The Division recorded more than $10.8 million in program income from June
              2004 through February 2007. Most of this program income was from repayments
              on loans. The following table shows the amounts of program income earned by
              program year:

                                                                        Amount of Program
                                      Program Year                       Income Earned
                              Initial accumulated amount*                       $ 2,500,029
                                          2004                                  $ 2,709,171
                                          2005                                  $ 2,699,743
                                          2006                                  $ 2,933,856
                                                      Total                     $10,842,799
                         *Initial amount established in 2004 in response to a HUD monitoring review.



              The Division used most of its HOME funds to provide loans. The amounts of
              HOME projects set up as loans were 84.4 percent in 2004, 93.8 percent in 2005,
              and 96.5 percent in 2006. The HOME projects established as loans consistently
              increased; consequently, the amount of program income earned will continue to
              increase proportionally.

              The Division is required by 24 CFR, Part 92 to disburse all program income
              before expending additional entitlement funds. The Division expended $9.1
              million in program income during program years 2005 and 2006. The only
              entitlement funds expended during this same period were for administrative and
              community housing development organizations costs because the System requires


                                                        8
            entitlement funds be used to fund these activities. The average amount of
            entitlement funds expended by the Division was just over $1.7 million for each of
            program years 2005 and 2006.

            As of March 31, 2007, the Division had $1.4 million in program income and
            $15.6 million in HOME entitlement funding for a total of more than $17.1 million
            of available HOME funding.

Board’s Goal in Direct Conflict
with HUD Requirements



            The board set a goal to ‘grow’ the Fund to $100 million. The 2006 annual report
            submitted by the board to the Utah State Legislature states, “the Board is
            committed to ‘growing’ the fund, and selectively allocates funds as loans rather
            than grants based upon each project’s economics.”

            The board’s goal is in direct conflict with HUD regulations that require the
            Division to expend the HOME funds within five years of receipt. The goal also
            contradicts the board’s overall objective of developing housing that is affordable
            to very low-, low- and moderate-income persons. The policy of the board to
            allocate HUD funds in the form of loans restricts meeting the needs of very low-
            income persons who cannot qualify for or afford loans.

            The Division does not have the policies and procedures in place to effectively
            establish and administer HOME projects to ensure compliance with HUD’s
            expenditure requirements.

Division in Jeopardy of HUD
Recapturing at Least $4 Million


            To determine compliance with the expenditure requirement, HUD uses a formula
            that compares the cumulative totals of entitlement expenditures to entitlement
            allocations. Specifically, the cumulative expenditures must be greater than
            cumulative allocations from five years earlier. For example, the Division’s
            cumulative expenditures at the end of program year 2006 of $34.7 million were
            greater than the cumulative allocations through 2002 of $33.7 million.

            The expenditure requirement will be $37.8 million for the end of program year
            2007 and $42.4 million for the end of program year 2008. Using the average
            amount of entitlement funds expended by the Division of just over $1.7 million,
            we estimate that the Division’s cumulative entitlement expenditures will be $36.5
            million at the end of program year 2007 and $38.3 million by the end of program



                                             9
             year 2008. Therefore, the Division is in jeopardy of HUD recapturing at least $4
             million ($42.4-$38.3=$4.1) by the end of program year 2008:


                                                 Expenditure Requirement

                Funding amount   45,000,000

                                 40,000,000

                                 35,000,000                                       Requirement Amount
                                 30,000,000                                       Disbursed Amount

                                 25,000,000

                                 20,000,000
                                              2004   2005    2006   2007   2008
                                                      Program Year




Conclusion

             The Division generates so much program income that it is not effectively
             expending its entitlement funds. This is occurring because the board’s stated goal
             is in direct conflict with HUD requirements and contradicts its overall objective of
             developing housing that is affordable to very low-, low-, and moderate-income
             persons. As a result, the Division is in jeopardy of losing at least $4 million in
             entitlement funds by the end of program year 2008 and the Division is not
             effectively meeting the needs of very low-income persons who cannot afford or
             qualify for a loan.

Recommendations

             We recommend that the HUD Denver Office of Community Planning and
             Development director

             2A. Require the board to bring its goal to ‘grow’ the fund into agreement with its
                 objective and HUD HOME requirements.

             2B. Require the Division to establish and implement written policies and
                 procedures to effectively accomplish HOME functions to ensure compliance
                 with HUD requirements.




                                                            10
2C. Provide technical assistance as needed to assist the Division in continuing to
    meet the five-year expenditure requirment and ensuring the $4 million that is
    in jeopardy is properly expended.




                                11
Finding 3: The Division Did Not Properly Monitor All HOME
            Activities
The Division did not adequately monitor its contract recipients’ HOME activities. It also did not
adequately monitor the HOME projects it established. This occurred because the Division
director did not provide sufficient oversight and management of the Division’s HOME functions.
Therefore, the Division and HUD lacked assurance that all HOME projects were established and
completed in compliance with the requirements, that HOME funds were properly controlled, and
that the intended program benefits were realized.


 Lack of Monitoring


              The Division used different methods for the establishment of single family and
              multifamily HOME projects, but did not properly monitor either. The Division
              contracted with several entities to establish and administer single family housing
              projects. The State is allowed by 24 CFR, Part 92 to contract with a recipient to
              perform HOME functions, but is required to conduct such reviews as necessary and
              appropriate to ensure the recipient is in compliance with HOME requirements.

              The Division set up and administered the multifamily housing projects. The State is
              required by 24 CFR, Part 92 to monitor the completion of the work specified in the
              contract and to monitor the units specified as affordable housing in the contract for
              the affordability period. The following sections describe the types of HOME
              contracts and the related monitoring deficiencies.

 Associations of Governments



              The Division contracted with several entities to perform the HOME functions for
              single family projects, but did not properly monitor the entities’ activities. The
              State of Utah divided the state into seven geographical regions and established
              councils of local government officials. The state called these geographical
              regions and corresponding councils associations of governments (associations).
              The Division established HOME contracts with five of the associations. HUD
              regulations require that the Division conduct reviews of its recipients to determine
              whether the recipients committed and expended the HOME funds as required and
              met the eligible activities and other requirements.

              The Division provided each association an allocation of HOME funds to provide
              loans for single family rehabilitation or reconstruction projects. The associations
              selected the projects, executed the contracts for the rehabilitation or
              reconstruction work, and prepared the loan documents. The Division and
              homeowner signed the loan documents. The Division and the State Finance


                                               12
           Department coordinated on collection of the loan payments. The associations also
           determined the eligibility of project contractors’ requests for payment and when
           the contract was complete.

           The Division gave full authority to the associations and did not adequately monitor
           their HOME functions. Therefore, the Division did not ensure that the projects were
           for eligible HOME activities. It also did not effectively monitor the completion of
           the projects. At the start of projects, the associations prepared and provided the
           Division the project loan documents. The loans had delayed effective dates to allow
           for the completion of the projects. For one project, the Division started sending
           payment notices on the loan after the effective date. The owner did not send
           payments, so the Division sent a default letter stating if payment was not received,
           foreclosure procedures would start. The Division then discovered that the project
           was not complete, but the Association did not submit a loan modification. At the
           time of our review, the Division and Association were working on correcting this
           project’s documentation and status.


American Dream
Downpayment Initiative
Contracts


           HUD started allocating American Dream Downpayment Initiative (Initiative)
           program funds to the Division in 2003. The Division contracted with nine recipients
           in 2004 to administer the Initiative. The Division provided a portion of each annual
           HUD Initiative allocation to each of the nine recipients. The recipients set up a local
           bank account, determined the persons who would receive Initiative funds, and
           established loans with these individuals. The loans were payable upon death, sale,
           or refinance of the home. The recipients deposited any loan payments in their local
           bank accounts and used the funds for other Initiative loans. This procedure was in
           violation of the HUD Initiative requirement that the Division deposit Initiative
           program income in its HOME bank account.

           The Division did not monitor how the recipients used the Initiative program funds.
           In addition, it did not have record of or recapture the Initiative program income and
           deposit the funds in the State’s HOME bank account, as required. Therefore, the
           Division did not have adequate controls over the Initiative funds and did not ensure
           compliance with the requirements.




                                             13
Multifamily Projects



            The Division set up and administered the multifamily housing projects involving
            HOME funds. It did not adequately complete the required monitoring. Division
            management officials stated that they hired a contractor to perform the
            multifamily monitoring functions. However, the Division did not provide
            documentation showing that the contractor properly completed this monitoring.

            The Division is required by 24 CFR, Part 92 to maintain program administration
            records, including written agreements, applicable administrative requirements,
            inspections, monitoring reviews, and the resolution of any findings or concerns.
            We reviewed six multifamily housing project files. The files contained the
            written agreements and other administrative documents, but only three contained
            monitoring review documentation. Division staff completed these monitoring
            documents from October 2006 to February 2007.

Lack of Monitoring Procedures


            The Division director did not establish policies and procedures to ensure that the
            Division performed the required monitoring. The Division had some general
            policies for the various HOME-related responsibilities, including monitoring, but
            not detailed procedures. The Division would be better able to ensure compliance
            with the monitoring requirements with detailed policies and procedures
            establishing when monitoring reviews are to be performed, what activities will be
            monitored, how the entity will be informed of the monitoring results, and how
            identified deficiencies will be resolved.

            The Division also did not properly complete the monitoring requirements for the
            multifamily projects for which it established and administered the contracts.
            Division employees did not complete all required monitoring visits and did not
            properly document all of the monitoring that was completed.

            The Division recently hired staff members whose responsibilities include
            monitoring the HOME projects. They were developing checklists to use for
            monitoring visits. They had started monitoring the multifamily projects
            established by the Division. However, they did not monitor the activities of the
            recipients.




                                            14
Lack of Assurance of Program
Compliance

             By not performing the required monitoring of all HOME projects, the Division
             and HUD lacked assurance that the projects were properly established and
             completed. The Division did not properly control the Initiative funds, so the
             funds were vulnerable to misuse. The Division and HUD also lacked assurance
             that the HOME funds expended on the projects provided the intended benefits of
             the HOME program of expanding the supply of decent, safe, sanitary, and
             affordable housing, with primary attention to rental housing, for very low-income
             and low-income families.


Conclusion

             The Division did not conduct the required monitoring of HOME functions,
             require adequate documentation to support requests for payment, or properly
             control HOME funds. It did not have effective policies and procedures to ensure
             proper administration of HOME functions. Therefore, the Division and HUD
             lacked assurance that all HOME projects were established and completed in
             compliance with the requirements and that the intended program benefits were
             realized.

Recommendations

             We recommend that the HUD Denver Office of Community Planning and
             Development director

             3A. Require the Division to establish and implement effective monitoring
                 policies and procedures to ensure that it effectively administers the HOME
                 program.

             3B. Require the Division to determine the amount of Initiative program income
                 earned from paid Initiative loans, to obtain that amount from the entities, and
                 to deposit it into the Division’s HOME bank account.




                                             15
Finding 4: The Division Did Not Ensure That HOME Funds Were Used
            for Related HOME Activities
The Division used HOME funds to pay expenses for the Utah Capacity Building Collaborative
(Collaborative) without substantiating that the expenses were for HOME-related activities. The
Division director did not provide sufficient oversight and management of the Division’s HOME
functions. Therefore, the Division and HUD lacked assurance that more than $300,000 in
administrative costs were necessary and that it realized the intended program benefits.


 Questionable Use of HOME
 Funds


              The Division used HOME funds to pay expenses for the Collaborative without
              substantiating that the expenses were for HOME-related activities. Allowable
              HOME costs are listed in 24 CFR, Part 92, which specifies that part of the
              allowable cost requirement is that the costs must be related to a HOME project or
              to carrying out the HOME program. The Collaborative contracts and cost
              documentation did not establish that the costs were related to HOME projects or
              necessary for carrying out the HOME program functions.

 Utah Capacity Building
 Collaborative


              The Division established the Utah Capacity Building Collaborative to help nonprofit
              entities “increase their organizational capacities and the effects of their programs on
              the lives of Utahns.” The Division executed HOME contracts with nine entities in
              2004 under the Collaborative. The HOME regulations’ allowable costs did not
              include capacity building expenses. The only allowance for capacity building cost
              was restricted to capacity building for Community Housing Development
              Organizations during the Division’s first two years of participation in the HOME
              program. The Division’s participation began in 1992, so this provision is not
              applicable.

              The scopes of work for the contracts were for activities that generally were
              allowable HOME costs, such as salary and other administrative items. The Division
              paid more than $300,000 for Collaborative costs (see appendix C for detailed
              listing). However, neither the contracts nor the payment support documentation
              established that the expenses related to a specific HOME project or were necessary
              to carry out the HOME program.




                                                16
   Technical Assistance Grants
   Not Used

             The Division competitively applied for and HUD awarded three technical assistance
             grants totaling $196,000. The Division’s grant applications showed that the
             intended uses were for Collaborative activities. The Division did not provide the
             required reports, so HUD disbursed no funding. The grants expired in 2003 and
             HUD recaptured the funds. The Division submitted “close out” documents in 2005
             requesting payment from the grants amounts. HUD explained that the funds were
             no longer available. Since the Division could not use the recaptured grants funds
             given specifically for the Collaborative, it used HOME funds instead without
             establishing that the costs were for HOME-related activities.


Lack of Controls


             Division management did not establish sufficient controls and procedures to ensure
             that the proper grant funds were used for Collaborative activities. Division
             management also did not have adequate controls to ensure that HOME funds were
             used only for clearly established HOME activities. They also did not establish and
             implement written policies and procedures for the administration of the HOME
             program functions, including determining the eligibility of costs and the proper
             disbursement of HOME funds.


Conclusion


             The Division disbursed $306,648 in HOME funds to Collaborative recipients for
             questionable costs. The costs were questionable because the available
             documentation did not establish that the expenses were necessary for HOME-
             related activities. Therefore, the Division and HUD lacked assurance that these
             costs resulted in HOME program benefits.

Recommendations

             We recommend that the HUD Denver Office of Community Planning and
             Development director

             4A. Determine whether the $306,648 in questionable costs to the Collaborative
                 were necessary.




                                             17
4B. Require the Division to repay, from nonfederal funds, the amounts
    determined to be unnecessary.




                               18
                        SCOPE AND METHODOLOGY

Our review period was from July 1, 2004, to June 30, 2006. We expanded the period as needed
to obtain historical and current information pertinent to our review. Our review was limited to
HOME Program activities.

To achieve our objectives, we reviewed HUD and Division criteria and contracts, met with HUD
and Division staff, and looked at HUD and Division records.

We selected a sample of 17 project files for HOME funding recipients out of 462 HOME
projects administered by the Division. We received a report for each year in the audit period
showing the projects funded from the HUD allocation for the year. We selected four projects
from the Division’s single family self help program, seven projects from its single family
rehabilitation program, and five projects from the multifamily program. We selected projects
that provided a cross-section of program activities. We reviewed these files to obtain an
understanding of the project documentation and to determine whether the Division properly
established and completed HOME projects. We used computer-generated lists to select our
sample, but did not place reliance on the computer data.

The Division contracted with five associations to perform HOME functions. We selected two
associations with larger contract amounts and within reasonable driving distances. We visited
the associations to obtain input from pertinent staff members concerning the assistance and
oversight provided by the Division and to gain an understanding of the information available for
review during a Division monitoring visit.

We performed our site work from January to March 2007 at the Division’s offices at 324 South
State Street, Suite 500, Salt Lake City, Utah.

We performed our review in accordance with generally accepted government auditing standards.




                                               19
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Controls over recording HOME program income earned and expended in
                      HUD’s System.
              •       Controls over committing and expending HOME funds and program
                      income within the HUD-required periods.
              •       Controls over monitoring HOME projects and subrecipient activities.
              •       Controls over ensuring HOME funds are used for HOME-related
                      activities.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses
              Based on our review, we believe the following items are significant weaknesses:

              •       The Division did not have adequate controls over the recording of program
                      income in the System and the use program income (finding 1).
              •       The Division’s current procedures could result in the Division not being able
                      to continue expending funds within the required five years (finding 2).
              •       The Division did not have adequate controls over the monitoring of HOME
                      project activities (finding 3).



                                               20
•   The Division did not have adequate controls to ensure that expenses were for
    HOME-related activities (finding 4).




                             21
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                  Recommendation       Unreasonable or     Funds to be put
                         number         unnecessary 1/      to better use 2/
                                2C                             $4,000,000
                                4A            $306,648


1/   Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
     prudent, relevant, and/or necessary within established practices. Unreasonable costs
     exceed the costs that would be incurred by a prudent person in conducting a competitive
     business.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified.

     In this instance, the $4 million represent funds that HUD will have to recapture if the
     Division does not meet the five-year expenditure requirement in the upcoming funding
     year. See finding 2 for a detailed explanation.




                                             22
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         23
                           OIG Evaluation of Auditee Comments

The Division’s response indicated general agreement with the findings and recommendations.

Comment 1     We obtained and reviewed the Low-Income Housing Tax Credits sections of the
              Internal Revenue Code and the Utah Code and did not find support for the
              statement that the rules did not allow grants. The Utah Housing Corporation is
              responsible for tax credits for the State of Utah. We contacted a Utah Housing
              Corporation official, who stated that tax credits do allow for grants, but there is a
              negative impact on the tax credits. The amount of the grant must be deducted
              from the project cost before the tax credits are calculated. He stated that he knew
              of low-income housing rehabilitation projects for which grants could be given
              with limited impact on the tax credits. He said he was willing to work with the
              Division and HUD to develop a rehabilitation plan.




                                               24
              Appendix C

  UTAH CAPACITY BUILDING COLLABORATIVE DETAILS

The Division developed the Collaborative for nonprofit entities involved in housing development
throughout Utah. The goal of the Collaborative is to help Utah’s community-based housing
organizations increase their organizational capacities and the effects of their programs on the
lives of Utahans. The following table shows the entities receiving HOME grants through the
Collaborative in 2004 and the use of the grants for each entity.

         Entity Name                            Purpose of Grant                        Grant Amount
                               Drafting new board and personnel manual,
Neighborhood Nonprofit
                               evaluation of technology, and development of
Housing Corporation
                               business plan                                                  $49,000
Uintah Basin Assistance        To pay salary of the Executive Director, travel,
Council                        training and equipment, and audit                              $30,000

Ogden Housing Authority        To pay partial salary of the Administrative Assistant
                                                                                              $19,336
Color Country Community
                               To pay salary of the Project Development Manager
Housing                                                                                       $32,000
                               To pay salary of the Executive Director, the
Coal Country Housing and
                               Property Management Staff, and the Financial
Development Corporation
                               Audit Consultant                                               $50,300
Multi-Ethnic Development
                               Hiring of staff and to provide training
Corporation                                                                                   $50,000
Northwest Band of Shoshone     Purchase of computers and hiring of tribal
Nation                         members to perform a tribal needs assessment                   $20,000
                               To pay partial salary of the Executive Director, the
Rural Housing Development
                               Accounting Assistant, and the Development
Corporation
                               Specialist                                                     $36,012
                               Purchase of upgraded computer hardware and
Navajo Utah Commission
                               development of procedures                                      $20,000
                                                                         Total Amount        $306,648




                                                25
